Attorneys for Petitioner
Christina Marie Martin
Counsel of Record

Pacific Legal Foundation
4440 PGA Blvd., Suite 307
Palm Beach Gardens, FL 33410

561-691-5000

cmartin@pacificlegal.org
Party name: Ohio ex rel. Elliot Feltner
Attorneys for Respondents
Janeane Renee Cappara
Counsel of Record

Cuyahoga County Prosecutor's Office
The Justice Center - Courts Tower
1200 Ontario Street, 8th Floor
Cleveland, OH 44113

216-698-2224

jcappara@prosecutor.cuyahogacounty.us
Party name: Cuyahoga County Board of Revision, et al.
Stephen William Funk
Counsel of Record

Roetzel & Andress, LPA
222 S. Main Street
Suite 400
Akron, OH 44308
sfunk@ralaw.com

Party name: Cuyahoga County Land Reutilization Corporation

330-849-6602

